U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 4, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Collabo Innovations, Inc. v. Sony Corporation,
S.Ct. No. 19-601

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 4,
2019, and placed on the docket on November 7, 2019. The government's response is due on
December 9, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 8, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-060 1
COLLABO INNOVATIONS, INC.
SONY CORPORATION

PATRICK J. CONROY
BRAGALONE CONROY PC
2200 ROSS AVEUE
SUITE 45 00W
DALLAS, TX 75201
214-785-6670
PCONROY@BCPC-LAW.COM
2 14-785-6680(Fax)

